September 2005
Report No. 05-031


FDIC’s Information Technology
Configuration Management Controls
Over Operating System Software
                                                                                           Report No. 05-031
                                                                                            September 2005

                                  FDIC’s Information Technology Configuration
                                  Management Controls Over Operating System
                                  Software

Background and                    Results of Audit
Purpose of Audit
                                  The FDIC had established and implemented a number of configuration
The Federal Deposit Insurance     management controls over its operating system software that were
Corporation (FDIC) Office of      consistent with federal standards and guidelines and industry-accepted
Inspector General (OIG)           practices. Such controls included a software patch management policy, a
contracted with International     change control board, and periodic scanning of operating system software
Business Machines (IBM)           configurations. These actions were positive; however, control
Business Consulting Services      improvements were needed. Specifically, the FDIC needed to establish an
to audit and report on the        organizational policy and system-specific procedures to ensure proper
effectiveness of the FDIC’s       configuration of operating system software. The FDIC also needed to
configuration management
                                  standardize and integrate the recording, tracking, and reporting of
controls over operating system
software. The results of this
                                  operating system software configuration changes to the extent practical.
audit support the OIG in
fulfilling its evaluation and     Recommendations and Management Response
reporting responsibilities
under the Federal Information     IBM recommends that the FDIC:
Security Management Act.
Configuration management is            • establish an organizational policy that defines roles,
a critical control for ensuring        responsibilities, and overall principles and management expectations
the integrity, security, and           for performing configuration management of operating system
reliability of information             software;
systems. Absent a disciplined
process for managing software          • develop configuration management plan(s) that include system-
changes, management cannot             specific procedures for managing the configuration of operating
be assured that systems will           system software;
operate as intended, that
software defects will be
                                       • ensure that the certification and accreditation of the FDIC’s general
minimized, and that                    support systems incorporate an evaluation and testing of the
configuration changes will be          configuration management policy and plan(s) referenced above;
made in an efficient and
                                       • fully document the minimum required configuration settings for the
timely manner.
                                       operating systems covered in this review, and develop procedures to
The objective of the audit was         ensure that changes to baseline configuration settings are
to determine whether the               documented; and
FDIC had established and
implemented configuration              • standardize and integrate the recording, tracking, and reporting of
management controls over its           configuration changes within and across operating system software
operating system software that         platforms to the maximum extent practical.
were consistent with federal
standards and guidelines and      FDIC management generally agreed with the report’s recommendations
industry-accepted practices.      and has either initiated or plans to initiate actions to address them.

To view the full report, go to
www.fdicig.gov/2005reports.asp
Federal Deposit Insurance Corporation                                                               Office of Audits
801 17th Street NW, Washington, DC 20434                                               Office of Inspector General




DATE:                                  September 8, 2005

MEMORANDUM TO:                         Michael E. Bartell
                                       Chief Information Officer and
                                       Director, Division of Information Technology



FROM:                                  Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               FDIC’s Information Technology Configuration Management
                                       Controls Over Operating System Software
                                       (Report No. 05-031)


Enclosed is a copy of a report completed by the independent professional services firm of
International Business Machines (IBM) Business Consulting Services. The firm’s report is
presented as Part I of this document.

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) contracted
with IBM to audit and report on the effectiveness of the FDIC’s configuration management
controls over operating system software. The results of this audit support the OIG in fulfilling its
evaluation and reporting responsibilities under the Federal Information Security Management
Act of 2002. The objective of the audit was to determine whether the FDIC had established and
implemented configuration management controls over its operating system software that were
consistent with federal standards and guidelines and industry-accepted practices. The audit
focused on four of the FDIC’s operating system software platforms used to support sensitive and
mission-critical business applications. This report provides recommendations to strengthen
configuration management controls over the FDIC’s operating system software.

Our evaluation of your response, a summary of your response and the status of corrective
actions, and your response in its entirety is contained in Part II of this report. The response
adequately addressed the recommendations in the report. We consider the report’s
recommendations to be resolved, but they will remain undispositioned and open for reporting
purposes until we have determined that agreed-to corrective actions have been completed and are
effective.
                                                 Table of Contents



Part I:

           Report by International Business Machines (IBM) Business
           Consulting Services

           FDIC’s Information Technology Configuration Management Controls
           Over Operating System Software ...............................................................................I-1


Part II:

           Corporation Comments and OIG Evaluation............................................................ II-1

           Management Response to Recommendations .......................................................... II-4

           Corporation Comments............................................................................................. II-6
                  Part I

Report by IBM Business Consulting Services
IBM Business Consulting Services



FDIC’s Information Technology
Configuration Management Controls
Over Operating System Software

Report No. 05-031




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General




Submitted by: IBM Business Consulting Services
              Security, Privacy, & Wireless
              12902 Federal Systems Park Drive
              Fairfax, VA 22033
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General     I-i



                                          Table of Contents
Section                                                                              Page
1. Executive Summary                                                                    1

2. Background                                                                           3

3. Detailed Finding
    Configuration Management Controls for Operating System Software                     7

Appendix A: Objective, Scope, and Methodology                                          14

Appendix B: Additional Information on the Capability Maturity Model Integration        16

Appendix C: Laws and Regulations                                                       18

Appendix D: Acronyms                                                                   19

Appendix E: Glossary of Terms                                                          20


                                             List of Tables
                                                                                     Page
Table 1: Operating System Software Platforms Reviewed                                   5
Table 2: CMMI Bodies of Knowledge                                                      16
Table 3: Capability Levels (Continuous Representation)                                 17
         Excerpts from the CMMI




                                            List of Exhibits
                                                                                     Page
Exhibit 1:   Software Configuration Management Principles of the CMMI                   3
Exhibit 2:   Change Management Process Steps                                            4
Exhibit 3:   Configuration Identification                                               7
Exhibit 4:   Configuration Control                                                      8
Exhibit 5:   Configuration Accounting                                                   9
Exhibit 6:   Configuration Auditing                                                     9
Exhibit 7:   Windows® Server and Desktop Software Configuration Changes                11
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                       I-1



1.          Executive Summary
The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) contracted
with International Business Machines (IBM) Business Consulting Services (hereafter referred to
as IBM) to audit and report on the effectiveness of the FDIC’s configuration management
controls over operating system software. Federal agencies are required by the Federal
Information Security Management Act of 2002 (FISMA)1 to establish and implement minimally
acceptable configuration requirements for their information systems. In addition, agency Chief
Information Officers (CIO) and Inspectors General are required by Office of Management and
Budget (OMB) policy to assess and report on the implementation of agency configuration
management controls as part of their annual FISMA reviews and evaluations. The results of this
audit support the OIG in fulfilling its evaluation and reporting responsibilities under FISMA.
IBM conducted its work in accordance with generally accepted government auditing standards.
The objective of the audit was to determine whether the FDIC had established and implemented
configuration management controls over its operating system software that were consistent with
federal standards and guidelines and industry-accepted practices. The scope of the audit focused
on four of the FDIC’s operating system software platforms: (1) Microsoft Windows® for
servers, (2) Microsoft Windows® for desktop (and laptop) computers, (3) Sun Microsystems,
Inc.’s Solaris™ for servers, and (4) Cisco IOS® for telecommunications. IBM chose these four
platforms because they support many of the FDIC’s sensitive and mission-critical business
applications. IBM used the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-53, Recommended Security Controls for Federal Information Systems, and
the Capability Maturity Model Integration (CMMI)2 developed by Carnegie Mellon University’s
Software Engineering Institute (SEI) as the primary criteria for conducting the audit. IBM chose
the CMMI because it defines a generally accepted set of software configuration management
principles, and the FDIC’s Division of Information Technology (DIT) has embraced the CMMI
as a means of achieving process improvement. The recommendations contained in this report
are designed to promote compliance with federal standards and guidelines and further the
FDIC’s goal of achieving CMMI process improvements.
A detailed description of the audit’s scope and methodology is contained in Appendix A.
Appendix D contains a list of acronyms, and Appendix E contains a glossary of terms used in the
report.
Results of the Audit
DIT established and implemented a number of configuration management controls over its
operating system software that were consistent with federal standards and guidelines and
industry-accepted practices. Such controls included a software patch management policy, a


1
    Appendix C contains additional information on the laws and regulations referenced in this report.
2
    CMMI Version 1.1 for Systems Engineering, Software Engineering, Integrated Product and Process Development, and
    Supplier Sourcing (Continuous Representation), dated March 2002. The CMMI is a process improvement
    methodology that defines six capability levels reflecting an organization’s ability to perform, control, and improve its
    performance. Appendix B contains additional information on the CMMI. CMMI is a service mark of Carnegie Mellon
    University.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                       I-2



FDIC Infrastructure Change Control Board,3 and periodic scanning of operating system software
configurations. Such actions were positive; however, control improvements were needed.
Specifically, DIT needed to establish an organizational policy and system-specific procedures to
ensure proper configuration management of operating system software. DIT also needed to
standardize and integrate the recording, tracking, and reporting of operating system software
configuration changes to the extent practical. Collectively, these control weaknesses limited the
FDIC’s assurance that its configuration management practices were efficient and effective and
that systems were configured to minimize the risk of security vulnerabilities and service
interruptions. A summary of IBM’s recommendations follows.
Summary Recommendations
IBM recommends that the FDIC CIO:
       •    Establish a policy that takes an enterprise approach to defining the roles, responsibilities,
            and overall principles and management expectations for performing configuration
            management on operating system software. The policy should address requirements for
            developing and maintaining configuration management plans and performing periodic
            self-assessments of configuration management processes and practices.
       •    Develop configuration management plan(s) covering the four operating system software
            platforms addressed in this report consistent with federal standards and guidelines and
            industry-accepted practices. DIT should determine whether other operating system
            software platforms require configuration management plan(s) and develop such plans
            where appropriate.
       •    Ensure that the certification and accreditation of the FDIC’s general support systems
            incorporate an evaluation and testing of the FDIC’s configuration management policy
            and plans referenced in recommendations 1 and 2 of this report.
       •    Document the minimum required configuration settings for the Windows® server and
            desktop operating system platforms, and develop procedures to ensure that changes to
            baseline configuration settings are documented.
       •    Standardize and integrate the recording, tracking, and reporting of operating system
            software configuration changes to the maximum extent practical. As part of this effort,
            DIT should consider using automated mechanisms to improve performance metric
            reporting for configuration changes from a system-specific and enterprise perspective.




3
    DIT established the FDIC Infrastructure Change Control Board in February 2005 to formally review and approve
    changes to the information technology infrastructure and technical architecture; ensure that changes are well planned,
    communicated, and coordinated; and manage the change control process.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                       I-3



2.          Background
Key to ensuring the integrity, security, and reliability of any information system is implementing
structured processes for managing the inevitable changes that will occur during the system’s life
cycle. Such processes, collectively referred to as configuration management, include evaluating,
authorizing, testing, tracking, reporting, and verifying both hardware- and software-related
changes. Typical changes that should be subject to formal configuration management in the
operating system software environment include the installation of security patches that address
known vulnerabilities, programs that support system maintenance, and upgrades (referred to as
“service packs”) that improve system performance, security, and functionality. Without
disciplined processes for controlling software changes, management cannot be assured that its
systems will operate as intended, that software defects will be minimized, or that systems
maintenance will be performed in a cost-effective or timely manner.
A number of internationally recognized software configuration management standards are in
wide use today. These include standards published by the SEI,4 Project Management Institute,
American National Standards Institute/Institute of Electrical and Electronic Engineers, and
International Organization for Standardization. IBM selected SEI’s CMMI as a key criterion for
conducting the audit because the CMMI defines
generally accepted software configuration management Exhibit 1: Software Configuration
principles, and DIT has embraced the CMMI as a means Management Principles of the CMMI
of achieving information technology (IT) process
improvement. In addition, the configuration
management principles embodied in the CMMI are
consistent with the configuration management security
controls defined in NIST SP 800-53 for non-national
security federal information systems. Exhibit 1 depicts
the software configuration management principles of the
CMMI. These four principles are based on the best
practices of carefully chosen disciplines, including
systems analysis and design and software engineering.
IBM’s audit results are organized around these four
fundamental principles, which are described in greater
detail below.                                              Source: IBM Analysis of the CMMI.

Configuration Identification involves the establishment of baseline configurations for “work
products” that are subject to configuration management. Typical work products subject to
configuration management within the operating system environment include software, such as
the system itself and its component parts, and documents, such as server and desktop build
procedures, systems inventories, and configuration management plans. Establishing and
enforcing baseline configurations is critical to reducing software maintenance costs and ensuring
secure and reliable systems. For example, without a baseline configuration for desktop operating
systems, such as Microsoft Windows® XP Professional Service Pack 2, organizations would


4
    SEI is a federally funded software engineering research and development center sponsored by the Department of
    Defense. Founded in 1984, SEI’s mission is to assist organizations in improving their software engineering capabilities.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                          I-4



expend excessive time and resources patching, troubleshooting, and testing changes for earlier
desktop versions of Windows®, such as Windows® XP Professional Service Pack 1. Baseline
configurations serve as the basis for future development and should be modified only through the
change control processes described under Configuration Control below.
Configuration Control is the heart of
                                                   Exhibit 2: Change Management Process
configuration management because it involves
                                                   Steps
implementing a change management system
to systematically control and monitor changes
to the baseline configurations established
under Configuration Identification. A change
management system consists of policies,
procedures, automated tools, and other
controls for performing the change
management process steps depicted in
Exhibit 2. Configuration Control ensures that
proposed software changes are properly
evaluated for compliance with applicable           Source: IBM Analysis of the CMMI.
standards, assessed and tested to avoid
potential disruptions or compromise of system security, approved or disapproved by appropriate
authorities, verified upon completion, and reflected in baseline configurations.
Configuration Status Accounting is the recording and reporting of configuration management
activities in sufficient detail to provide stakeholders with information needed to manage their
work products. Such information can include metrics such as the number of in-process and
completed configuration changes at a particular point in time, the average time spent processing
high-priority or low-priority changes, and the number of changes that address new requirements
or defects in work products.5 By performing trend analysis of such metrics, management can
identify potential problems in its configuration management processes. Configuration Status
Accounting information is used to make important policy, resource, and budget decisions and
assists managers in determining whether configuration management processes and practices are
efficient, effective, and achieving intended results. Due to the complexity and volume of
configuration changes associated with operating system software, many organizations use
automated configuration management tools to centrally track, record, and report the status of
configuration changes.

Configuration Auditing involves the self-assessment of an organization’s configuration
management activities and processes to determine whether controls function as intended. Such
self-assessments provide management with assurance that baseline configurations and related
documentation are current, accurate, and complete and that implemented changes can be traced



5
    Examples of configuration changes resulting from defects in work products include (1) the redeployment of a software
    patch because the original deployment did not successfully install on all target servers or workstations or (2) corrective
    actions to address a software functionality problem caused by incompatibility. Tracking such changes is important
    because they could be an indication of inadequate testing or other configuration management problems.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                        I-5



to original requirements. The results of configuration management audits can be subject to
review by independent third parties.
Roles and Responsibilities for Operating System Software
DIT has overall responsibility for maintaining the configuration of the FDIC’s operating system
software. Responsibility for maintaining the configuration of individual operating system
software platforms is shared among two branches and several sections within DIT’s
Infrastructure Services (IS). Table 1 below identifies the four operating system software
platforms selected for the audit, along with a brief description of the platform and the IS section
with primary responsibility for its configuration.
Table 1: Operating System Software Platforms Reviewed

    Operating                                                                         IS Branch/Section
 System Software                          General Description                           With Primary
     Platform                                                                           Responsibility
 Microsoft               Windows® 2000 Advance Server is the standard                Software Support
 Windows® for            operating system in the network server environment.*        Branch, Server
 Servers                 The Windows® server platform supports network-              Software Section
                         based applications, such as the New Financial               Operations Branch,
                         Environment and FDICconnect, as well as IT services         LAN Management
                         for managing the network.                                   Section
 Microsoft               Windows® XP Professional is the standard operating          Software Support
 Windows® for            system in the desktop computer environment.                 Branch, Client
 Desktop (and            Windows® XP Professional primarily supports user            Software Section
 Laptop)                 productivity tools, such as the Internet Explorer and       Operations Branch,
 Computers               Microsoft Office Suite.                                     LAN Management
                                                                                     Section
 Sun Microsystems,       Solaris™ is the standard operating system in the            Software Support
 Inc., Solaris™          UNIX® environment. Solaris™ supports core IT                Branch, Server
                         infrastructure services, such as the Public Key             Software Section
                         Infrastructure, and a number of business applications,      Operations Branch,
                         such as the Overarching Automation System and               Telecommunications
                         Corporate Human Resources Information System                Section
                         Time and Attendance system.
 Cisco IOS®              Cisco IOS® supports the routing, message processing,        Operations Branch,
                         and protocol interfaces needed to transfer data over        Telecommunications
                         the FDIC’s LANs, metropolitan area networks, and            Section
                         wide area network.

* At the time of our audit, DIT supported a limited number of servers operating the Windows NT® and
  Windows® 2003 operating systems.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                     I-6



Recent Control Improvements
DIT has taken a number of recent actions to strengthen its configuration management controls
over operating system software, and additional improvements were underway during the audit.
Of particular note, DIT issued a formal patch management policy,6 established the FDIC
Infrastructure Change Control Board, and strengthened its security vulnerability scanning
techniques7 for network devices. DIT also established a new performance-based contracting
structure in September 2004 that included a service-level agreement to achieve CMMI process
improvement in infrastructure operations (including software configuration management). In
addition, DIT was working to improve the integrity of patch information reported by the
Microsoft Systems Management Server (SMS) 20038 and implement Symantec’s Enterprise
Security Manager on the FDIC’s IT infrastructure to better monitor the configuration of
Windows® servers. While such improvements promote an enterprise-wide approach to
performing configuration management, additional controls are needed to ensure proper
management of operating system software configuration.




6
  DIT Policy Memorandum 04-004, Policy on Security Patch Management, dated April 15, 2004.
7
  DIT began using the Harris Corporation’s Security Threat Avoidance Technology (STAT®) vulnerability assessment
  scanner in December 2004.
8
  SMS is a key configuration management tool used on the Windows® server and desktop computing platforms. DIT
  uses SMS to remotely scan devices on these software platforms, inventory installed software, distribute security patches
  and other software, and generate reports on installed/uninstalled software.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                     I-7



3.          Detailed Finding: Configuration Management Controls for Operating
            System Software
CONDITION
DIT established and implemented a number of configuration management controls over its
operating system software that were consistent with federal standards and guidelines and
industry-accepted practices. Such controls included a software patch management policy, an
FDIC Infrastructure Change Control Board, and periodic scanning of operating system software
configurations. Such actions were positive; however, control weaknesses existed relating to each
of the four configuration management principles defined in the CMMI. A description of these
weaknesses follows.
Configuration Identification                                                  Exhibit 3: Configuration Identification

DIT used a number of key work products, such as server
and desktop build procedures, ghost imaging procedures,
software image files, and system inventories, to manage the
configuration of the four operating system software
platforms that we reviewed. DIT had not subjected these
work products to formal configuration management, as
defined by the CMMI, to ensure that they were current,
accurate, and complete. Specifically, DIT had not
developed procedures for (1) identifying work products
that should be subject to configuration management,            Source: IBM Analysis of the CMMI.
(2) designating responsibility for maintaining current and historical versions of work products,
(3) designating authority to approve changes to work products, and (4) determining when work
products should be revised.9 Such procedures are typically documented in a configuration
management policy and/or system configuration management plan(s).

DIT defined configuration procedures in various documents but had not documented procedures
for the ongoing identification and documentation of minimum custom baseline configuration
settings applicable to the Windows® server and desktop operating system platforms. Custom
configuration settings include, for example, registry permissions, Internet Explorer settings, local
system security settings, and unnecessary computer services that should be disabled or
uninstalled. In OIG Audit Report No. 05-016 entitled, Audit of Security Controls Over the
FDIC’s Electronic Mail Infrastructure, dated March 31, 2005, IBM noted that DIT had not
documented procedures for disabling unnecessary computer services on Exchange e-mail servers
when appropriate. Based on a sample of 15 e-mail servers, IBM identified 6 computer services
that had been enabled but were not required for processing e-mail. The six unnecessary
computer services presented a potential security risk because they could have been exploited by a
virus, worm, or other malicious program to damage the FDIC’s IT resources.

9
    Organizations can use different criteria for determining when a work product subject to configuration management
    should be revised. For example, an organization may require that its desktop build procedures and associated software
    image files be updated only following a major operating system upgrade, while another organization may require
    updates to these same work products periodically, such as monthly.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                    I-8



Configuration Control                                                             Exhibit 4: Configuration Control

DIT had not standardized or integrated its processes for
tracking and recording configuration changes within or across
its operating system software platforms to ensure that such
changes were properly controlled, accounted for, and reported.
For example, software-related changes10 for one of four
operating system software platforms reviewed (i.e., Windows®
server) were documented using standard forms that were stored
in a central location. However, hardware-related changes11 for
this same platform were neither recorded using a standard form
nor stored in a central repository. In order to obtain            Source: IBM Analysis of the CMMI.
information about hardware-related changes for this platform,
such as when a change was made, who implemented a change, testing that was performed for a
change, or who verified a change, IBM had to speak with systems personnel with first-hand
knowledge of the changes. Configuration changes for another of the four operating system
software platforms (i.e., Sun Microsystems, Inc.’s Solaris™ for servers) were either managed
through an automated change management tool12 or recorded in various Microsoft Word
documents, depending on which IS branch and section had responsibility for the servers affected
by the change.
Although DIT had developed test plans and roll-back plans13 for its major operating system
upgrades, test plans and roll-back plans were generally not documented for other configuration
changes. Although IS personnel stated that they had tested configuration changes before they
were implemented, test plans and test results were not documented for 22 of 25 judgmentally
selected configuration changes to the four operating system software platforms. In addition, 21
of 25 configuration changes did not have a documented roll-back plan. Test plans, roll-back
plans, and test results are important for ensuring that configuration changes function as intended
and have no negative impact on IT operations. In January 2005, several hundred FDIC users
were unable to access their Outlook e-mail for several days following an unsuccessful
configuration change to a key e-mail server. IBM noted that DIT had not documented a test
plan, test results, or roll-back plan for this configuration change. Test results also document
system incompatibilities and management’s rationale for making specific configuration
decisions. The level of documentation needed for test plans, roll-back plans, and test results
should be based on the risk and complexity of a configuration change and could be as simple as a
completed checklist or memorandum.



10
   Software-related changes include, for example, the installation or removal of items such as service packs, security
 patches, and software programs.
11
   Hardware-related changes include, for example, the installation or removal of items such as network interface cards
 and server hard drives. Hardware-related changes can directly impact the performance of operating system software.
12
   The tool used was the FDIC Change Management System (FCMS). FCMS has formal automated workflow process
 capabilities, such as the ability to track, record, and report configuration change requests.
13
   Sometimes referred to as a “back-out plan,” a roll-back plan describes the system recovery steps to be followed should
 a configuration change cause an unexpected, negative effect on an organization’s IT operations.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                I-9



Configuration Accounting                                                   Exhibit 5: Configuration Accounting

DIT collected and reported configuration status information
on the four operating system software platforms that we
reviewed through a variety of means, including the FDIC
Infrastructure Change Control Board meetings, SMS
reports on patch deployments, and software scanning
techniques. However, DIT did not track or report key
configuration management metrics within or across its
operating system software platforms. Such metrics could
include, for example, the number of in-process and            Source: IBM Analysis of the CMMI.
completed configuration changes, the status of in-process
changes, or the average amount of time (i.e., speed) to implement high-priority versus low-
priority changes. In addition, because DIT did not classify configuration changes as addressing
new requirements or defects in work products, DIT was unable to determine the amount of effort
expended to enhance software versus correct problems.
Configuration Auditing                                                       Exhibit 6: Configuration Auditing

DIT used various automated tools to evaluate the
configuration of its operating system software,14 but had not
developed self-assessment procedures for determining
whether configuration management controls functioned as
intended. Developing self-assessment procedures is a
recognized practice in configuration management and could
be used to detect or prevent the types of process weaknesses
identified in this report. Common self-assessment procedures
include evaluating the integrity of key work products subject
                                                                Source: IBM Analysis of the CMMI.
to configuration management; determining whether change
request documentation is current, accurate, and complete; inspecting configuration changes for
compliance with applicable policies, procedures, and guidelines; and verifying that configuration
changes have been implemented as intended.
CAUSE
Several causes contributed to the control weaknesses in DIT’s configuration management
processes and practices as discussed below.
Organizational Policy and System-Specific Procedures
Circular 1320.4, FDIC Software Configuration Management Policy, dated July 8, 2003,
establishes key roles and responsibilities, management expectations, and requirements for
configuration management (including the need for configuration management plans, reviews of
configuration management processes, and the use of automated configuration management
tools). However, the circular is limited to application software and does not address operating

14
  Such tools included SMS, the Foundstone vulnerability scanner, the Harris Corporation’s STAT scanner, and the
 Shavlik patch scanner.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                       I-10



system software. An organizational configuration management policy should define overall
principles and expectations for performing operating system software configuration management
and the associated roles and responsibilities of key personnel and organizational components,
such as system engineers, administrators, and the FDIC Infrastructure Change Control Board.
The policy should also address, and be a critical component of, the certification and accreditation
process for operating system software.15 An organizational policy is an important component of
an enterprise approach to software configuration management.
DIT documented a number of its configuration management practices in various policies and
procedures and established the FDIC Infrastructure Change Control Board to oversee
configuration changes to the FDIC’s operating system software. However, DIT had not
developed configuration management plan(s) for any of the four operating system software
platforms that IBM audited. Configuration management plans are a fundamental control for
maintaining proper configuration of information systems because the plans define procedures for
evaluating, classifying, authorizing, testing, documenting, and verifying configuration changes.
These plans also define the system-specific roles and responsibilities (including controls for
ensuring appropriate separation of duties) of key stakeholders and procedures for identifying,
maintaining, and updating work products subject to configuration management. In addition,
configuration management plans can describe the type and frequency of configuration status
information to be tracked and reported to management, training requirements for key personnel,
and requirements for conducting self-assessments of configuration management controls.
Configuration management plans are an important component of system certification and
accreditation. Because systems vary in complexity and design, configuration management plans
should be tailored to the requirements of individual systems.
Automated Workflow Processes
The lack of standardization and integration in DIT’s practices of recording, tracking, and
reporting system configuration changes was caused primarily by a lack of automated workflow
processes using configuration management tools. System change requests for three of four
operating system software platforms reviewed were not managed with an automated workflow
process tool. Although DIT used a workflow process tool to manage change requests on the
remaining platform (i.e., Sun Microsystems, Inc.’s Solaris™ for servers), the tool was not used to
track all change requests on the platform. In addition, system change requests for two other
platforms (i.e., Windows® server and desktop) were generally stored in Outlook e-mail folders
and Microsoft Word documents rather than in a central repository that could be used for tracking,
reporting, or interfacing with other corporate systems, such as REMEDY®.16 The lack of
automated workflow processes using configuration management tools contributed to the absence
of meaningful configuration management metrics discussed earlier.

15
   Accreditation is the official management decision given by a senior agency official to authorize operation of an
 information system and to explicitly accept the risk to agency operations, agency assets, or individuals based on the
 implementation of an agreed-upon set of security controls. Certification is a comprehensive assessment of the
 management, operational, and technical security controls in an information system, made in support of security
 accreditation, to determine the extent to which the controls are implemented correctly, operating as intended, and
 producing the desired outcome with respect to meeting the security requirements for the system.
16
   REMEDY is used to track trouble tickets and IT hardware inventory.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                 I-11



Exhibit 7 illustrates the combined number    Exhibit 7: Windows® Server and Desktop
of application and infrastructure            Software Configuration Changes
configuration changes affecting two of the
four operating system software platforms
that IBM reviewed.17 An automated
workflow process tool to manage such a
large number of configuration changes
offers many advantages, such as defined
business processes built into the tool that
promote consistent, auditable, and
repeatable change control practices.
Configuration requirements can vary from
system to system. Therefore, a single
automated workflow process tool may not      Source: Analysis of DIT’s Windows® Implementation
satisfy all configuration management needs. Announcements Outlook E-Mail Folders.
Selecting a workflow process tool should
be based on an assessment of DIT’s
existing information systems and commercially available software products.
CRITERIA
The CMMI, NIST, and OMB have established a number of guiding principles for effective
software configuration management as discussed below.
Organizational Policy and System-Specific Procedures
The CMMI identifies an organizational configuration management policy as an important control
for effectively planning and performing software configuration management. According to the
CMMI, the configuration management policy defines organizational expectations for
establishing and maintaining configuration baselines and tracking and controlling changes to
work products subject to configuration management. Additionally, NIST SP 800-53 references a
“formal, documented, configuration management policy that addresses purpose, scope, roles,
responsibilities, and compliance [i.e., self-assessments]” as a recommended security control for
protecting federal information systems.
A key practice in the CMMI is performing periodic audits (i.e., self-assessments) of
configuration management activities and processes to ensure the integrity of baseline
configurations and related documentation. Self-assessments evaluate compliance with applicable
configuration management standards and procedures and verify the integrity of items in the
configuration management system based on requirements documented in the configuration
management plan. In addition, NIST SP 800-53 recognizes audit activities associated with
configuration changes to federal information systems as a recommended security practice.
The CMMI recognizes the importance of establishing and maintaining a configuration
management plan. According to the CMMI, an important configuration management practice is

17
  IBM was unable to determine the number of configuration changes relating to the infrastructure because infrastructure
 changes were not stored separately from application changes.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                      I-12



identifying work products that will be subject to configuration management based on
documented criteria and designating individuals responsible for work product maintenance.
NIST SP 800-53 identifies a configuration management plan as a recommended security control
for protecting federal information systems. The NIST publication also references “formal,
documented procedures to facilitate the implementation of the configuration management policy
and associated configuration management controls” as a component of a security control
structure. In addition, NIST SP 800-37, Guide for the Security Certification and Accreditation of
Federal Information Systems, notes that configuration management plans are a key security-
related document that can be part of the security accreditation package. The Computer Security
Division of NIST maintains examples of configuration management plans for operating system
software at its Web site http://csrc.nist.gov/fasp under the link entitled “FASP Areas.”18
Further, NIST SP 800-53 recognizes the importance of maintaining an organization-defined list
of prohibited computer services and configuring IT products to the most restrictive mode
consistent with system operational requirements. In addition, NIST SP 800-70, The NIST
Security Configuration Checklists Program, contains detailed guidance that should be used when
configuring operating system software settings.
Automated Workflow Processes
The CMMI addresses the importance of establishing and maintaining a change management
system to store, update, and retrieve configuration management records and other work products
subject to configuration management. The change management system includes a change
request database wherein change requests are initiated and recorded and configuration
management reports are generated. NIST SP 800-53 states that organizations should employ
automated mechanisms to (i) document proposed changes to the system, (ii) notify appropriate
approval authorities, (iii) identify approvals that have not been received in a timely manner,
(iv) inhibit change until necessary approvals are received, and (v) document completed changes
to the information system. NIST SP 800-53 also recognizes that organizations should employ
automated mechanisms to maintain an up-to-date, complete, accurate, and readily available
baseline configuration. Automating change control practices is also consistent with DIT’s
infrastructure services contract, which requires contractor personnel, whenever possible and
practical, to consolidate IT platforms and operations, integrate infrastructure requirements into
efficient and effective solutions, and capture and deliver information in real or near-real time
using electronic means.
OMB Circular No. A-130, Management of Federal Information Resources, dated November 28,
2000, requires agencies to institute performance measures and management processes that
monitor actual performance against expected results. The CMMI describes various types of
configuration metrics, such as the status of change requests and number of change requests
related to software defects, that are part of configuration management. Such metrics would be a
valuable asset to DIT management in evaluating the performance of the FDIC’s IT infrastructure
services contractors.

18
  Federal Agency Security Practices (FASP). The FASP effort was initiated as a result of the success of the Federal
 CIO Council’s Federal Best Security Practices pilot effort to identify, evaluate, and disseminate best practices for
 critical infrastructure protection and security.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General               I-13



EFFECT
The lack of an organizational policy and system-specific configuration management procedures
limited the FDIC’s assurance that its information systems were configured to minimize the risk
of security vulnerabilities and IT service interruptions. Absent appropriate policies and
procedures, DIT is overly dependent on the knowledge and experience of individual system
engineers and administrators to maintain minimum baseline configuration settings consistently
across platforms. The lack of automated workflow processes impaired DIT’s ability to
efficiently and effectively manage system configuration changes throughout the systems’ life
cycle and to report meaningful configuration metrics to management. In addition, the lack of
periodic self-assessments of configuration management controls limited DIT’s assurance that key
work products were current, accurate, and complete and that configuration management
processes were efficient, effective, and achieving intended results.
RECOMMENDATIONS
IBM recommends that the FDIC CIO:
    1. Establish a policy that takes an enterprise approach to defining the roles, responsibilities,
       and overall principles and management expectations for performing configuration
       management on operating system software. The policy should address requirements for
       developing and maintaining configuration management plans and performing periodic
       self-assessments of configuration management processes and practices.
    2. Develop configuration management plan(s) covering the four operating system software
       platforms addressed in this report consistent with federal standards and guidelines and
       industry-accepted practices. DIT should determine whether other operating system
       software platforms require configuration management plan(s) and develop such plans
       where appropriate.
    3. Ensure that the certification and accreditation of the FDIC’s general support systems
       incorporate an evaluation and testing of the FDIC’s configuration management policy
       and plans referenced in recommendations 1 and 2 of this report.
    4. Document the minimum required configuration settings for the Windows® server and
       desktop operating system platforms and develop procedures to ensure that changes to
       baseline configuration settings are captured and documented.
    5. Standardize and integrate the recording, tracking, and reporting of operating system
       software configuration changes to the maximum extent practical. As part of this effort,
       DIT should consider using automated mechanisms to improve performance metric
       reporting for configuration changes from a system-specific and enterprise perspective.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                             I-14



APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the FDIC had established and implemented
configuration management controls over its operating system software that were consistent with
federal standards and guidelines and industry-accepted practices. The scope of the audit focused
on four operating system software platforms: (1) Microsoft Windows® for servers,19 (2)
Microsoft Windows® for desktop (and laptop) computers, (3) Sun Microsystems, Inc.’s Solaris™
for servers, and (4) Cisco IOS® for telecommunications. IBM chose these four platforms
because they support many of the FDIC’s sensitive and mission-critical business applications.
The audit did not include an evaluation of the FDIC’s configuration management controls over
applications running on the four operating system software platforms because DIT was
performing an internal assessment of application configuration management controls.

To accomplish the audit objective, IBM interviewed key DIT personnel who had responsibility
for maintaining the configuration of the four operating system software platforms. IBM
reviewed relevant FDIC policies, procedures, and guidelines and evaluated key documents and
reports, such as server and desktop build procedures, system security plans, and DIT’s Daily
Reports for Technical Infrastructure. IBM also reviewed DIT’s security self-assessment
procedures that were designed to ensure the secure configuration of the four selected platforms.
In addition, IBM evaluated DIT’s change control procedures for each of the four platforms by
testing a judgmental sample of configuration changes. Using source documentation and DIT’s
automated systems of record, IBM determined whether selected configuration changes had been
properly authorized, evaluated, tested, tracked, implemented, and reported. IBM coordinated its
work with an ongoing DIT internal assessment of the security patch management process for
desktop computers.

IBM used NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
and the configuration management principles defined in the CMMI, developed by Carnegie
Mellon University’s SEI, as the primary criteria for conducting the audit. In addition, IBM used
relevant provisions of the Government Accountability Office’s Federal Information System
Controls Audit Manual20 and NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, as supplemental criteria. The OIG evaluated the
nature, timing, and extent of work described in IBM’s audit program, obtained an understanding
of IBM’s methodologies and assumptions, attended key meetings, monitored progress
throughout the audit, and performed other appropriate procedures. In this manner, the OIG was
able to assure itself that, except for the performance of an external peer review, IBM's audit work
complied with generally accepted government auditing standards. IBM conducted its field work
from October 2004 through June 2005.



19
   The FDIC’s standard server-based operating system in the network environment is Microsoft Windows® 2000
 Advance Server. At the time of our audit, DIT was maintaining a limited number of servers operating the Windows
 NT® and Windows® 2003 operating systems.
20
   The manual provides guidance for reviewing information system controls (including software configuration
 management controls) that affect the integrity, confidentiality, and availability of computerized data.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General          I-15



Prior Audit Coverage
On September 1, 2000, the OIG issued Audit Report No. 00-038 entitled, Audit of the
Information Technology Configuration Management Program. The report states that the then
Division of Information Resources Management (now DIT) was in the process of developing a
plan to establish a formal IT configuration management program. The report discusses the
salient components of effective configuration management and recommends considering these
components in developing and implementing a formal configuration management program.
FDIC management had taken action sufficient to close the recommendation.
Computer-based Data, Performance Measures, and Illegal Acts
IBM performed appropriate procedures to ensure that computer-based data were valid and
reliable when those data were significant to the audit’s findings and conclusions. Such
procedures included verifying selected automated data to source documentation and
corroborating automated data through interviews with appropriate DIT personnel. In addition,
IBM evaluated whether DIT’s configuration management performance metrics for operating
system software were consistent with federal and industry guidance. Finally, IBM did not
develop specific audit procedures to detect fraud and illegal acts because they were not
considered material to the audit objective. However, throughout the audit, IBM was sensitive to
the potential of fraud, waste, abuse, and mismanagement.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                 I-16



APPENDIX B: ADDITIONAL INFORMATION ON THE CAPABILITY MATURITY
            MODEL INTEGRATION
The CMMI combines a carefully chosen set of best practices based on experience in four bodies
of knowledge (described in Table 2 below). Organizations from industry, government, and
Carnegie Mellon University’s SEI jointly developed the CMMI to provide organizations a
mechanism to effectively appraise their process area capabilities, establish priorities, and
implement improvements.
                               Table 2: CMMI Bodies of Knowledge
 Body of Knowledge             Description
 System Engineering            Covers the development of total systems, which may or may not
                               include software. Systems engineers focus on transforming customers'
                               needs, expectations, and constraints into products and supporting these
                               products throughout their life cycle.
 Software                      Covers the development of software systems. Software engineers
 Engineering                   focus on applying systematic, disciplined, and quantifiable approaches
                               to the development, operation, and maintenance of software.
 Integrated Product            Provides a systematic approach that achieves a timely collaboration of
 and Process                   relevant stakeholders throughout the life of a product to satisfy
 Development                   customers' needs, expectations, and requirements. The processes to
                               support an Integrated Product and Process Development approach are
                               integrated with the other processes in the organization.
 Supplier Sourcing             Covers the use of suppliers to perform functions or add modifications
                               to products that are specifically needed by a project. Projects benefit
                               from enhanced source analysis and monitoring supplier activities
                               before product delivery.


The CMMI supports two representations: staged and continuous. The staged representation
provides a proven sequence of improvements, beginning with basic management practices and
progressing through a pre-defined and proven path of successive levels, each serving as a
foundation for the next. The staged representation permits comparisons across and among
organizations by the use of overall, organization-wide maturity levels. The continuous
representation allows an organization to select the order of improvement that best meets its
business objectives and mitigates the organization’s areas of risk. The continuous representation
enables comparisons across and among organizations on a process-area-by-process-area basis,
using the six capability levels depicted in Table 3 on the next page. Both representations are
designed to achieve essentially equivalent results.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                I-17



                  Table 3: Capability Levels (Continuous Representation)
                           Excerpts From the CMMI

  Capability                                 Capability Level Description
    Level
        0         Incomplete. Reflects processes that are either not performed or partially
                  performed.
        1         Performed. Reflects processes that support and enable the work needed to
                  produce identified work products.
        2         Managed. Reflects processes that are planned and executed in accordance
                  with policy, employ skilled people having adequate resources to produce
                  controlled outputs, involve relevant stakeholders, are monitored, controlled,
                  and reviewed, and are evaluated for adherence to its process description. A
                  critical distinction between a performed process and a managed process is the
                  extent to which the process is managed. A managed process is planned, and
                  the performance of the process is managed against the plan. Corrective
                  actions are taken when the actual results and performance deviate
                  significantly from the plan.
        3         Defined. Reflects managed processes that are tailored from the
                  organization's set of standard processes according to the organization’s
                  tailoring guidelines and contributes work products, measures, and other
                  process-improvement information to the organizational process assets. The
                  organization’s set of standard processes, which are the basis of the defined
                  process, are established and improved over time.
        4         Quantitatively Managed. Reflects processes that are controlled using
                  statistical and other quantitative techniques. Quantitative objectives for
                  quality and process performance are established and used as criteria in
                  managing the process.
        5         Optimizing. Reflects processes that are quantitatively managed and changed
                  and adapted to meet relevant current and projected business objectives. An
                  optimizing process focuses on continually improving process performance
                  through both incremental and innovative technological improvements.
                  Process improvements that would address root causes of process variation
                  and measurably improve the organization’s processes are identified,
                  evaluated, and deployed as appropriate.


IBM used the CMMI Version 1.1 for Systems Engineering, Software Engineering, Integrated
Product and Process Development, and Supplier Sourcing (Continuous Representation), dated
March 2002, (CMMI-SE/SW/IPPD/SS, V1.1) as a key criterion for conducting the audit because
the CMMI defines generally accepted software configuration management principles, and DIT
has embraced the CMMI as a means of achieving IT process improvement.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General            I-18



APPENDIX C: LAWS AND REGULATIONS
Below are the key statutes, regulations, standards, and guidelines that were considered during the
audit. Statutory and regulatory sources may not be legally binding on the FDIC; see individual
references for further information.
Federal Information Security Management Act (FISMA), title III, E-Government Act
of 2002, Pub. L. No. 107-347, dated December 17, 2002
http://www.cio.gov/archive/e_gov_act_2002.pdf
Enacted as part of the E-Government Act of 2002, FISMA permanently re-authorized and
strengthened the information security program, evaluation, and reporting requirements
established by the Government Information Security Reform Act (GISRA), which expired in
November 2002. FISMA provides a comprehensive framework for ensuring the effectiveness of
information security controls over information resources supporting federal operations and
assets. Among its provisions, FISMA requires federal agencies to establish and implement
minimally acceptable configuration requirements for their information systems; see section
301(b). For purposes of that section, the FDIC is considered an agency and is, therefore, subject
to its provisions.
OMB Circular No. A-130, Management of Federal Information Resources (Transmittal
Memorandum No. 4) Appendix III, Security of Federal Automated Information Resources,
dated November 2000 (OMB A-130, Appendix III)
http://www.whitehouse.gov/omb/circulars/a130/a130appendix_iii.html
OMB A-130, Appendix III, establishes minimum controls for federal automated information
security programs. The FDIC’s Legal Division has opined that portions of the circular apply to
the FDIC, while other portions do not apply. The Legal Division specifically opined that
Appendix III of the circular legally requires the FDIC to implement and maintain an information
security program consistent with government-wide policies, standards, and procedures issued by
the OMB and the U.S. Department of Commerce.
NIST Special Publication (SP) 800-53, Recommended Security Controls for Federal
Information Systems, dated February 2005
http://csrc.nist.gov/publications/nistpubs/800-53/SP800-53.pdf
The publication defines minimum recommended security controls for non-national security
federal information systems based on the impact levels defined in NIST Federal Information
Processing Standard (FIPS) 199, Standards for Security Categorization of Federal Information
and Information Systems. NIST SP 800-53 provides guidelines for selecting and specifying
minimum security controls for federal information systems until the publication of FIPS 200,
Minimum Security Requirements for Federal Information and Information Systems (projected for
publication December 2005). The guidelines have been developed to help achieve more secure
systems within the federal government. NIST SPs are, by their own terms, guidelines (rather
than mandatory requirements) for agencies in implementing their IT operations.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General         I-19



APPENDIX D: ACRONYMS

       Acronyms                                                Definition
 CIO                        Chief Information Officer
 CMMI                       Capability Maturity Model Integration
 DIT                        Division of Information Technology
 FCMS                       FDIC Change Management System
 FDIC                       Federal Deposit Insurance Corporation
 FISMA                      Federal Information Security Management Act
 IBM                        International Business Machines Business Consulting Services
 IS                         Infrastructure Services
 IT                         Information Technology
 NIST                       National Institute of Standards and Technology
 OIG                        Office of Inspector General
 OMB                        Office of Management and Budget
 POA&M                      Plan of Action & Milestones
 SEI                        Software Engineering Institute
 SMS                        Systems Management Server
 SP                         Special Publication
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                    I-20



APPENDIX E: GLOSSARY OF TERMS

             Term                                                   Definition

 Accreditation                     Security accreditation is the official management decision given
                                   by a senior agency official to authorize operation of an
                                   information system and to explicitly accept the risk to agency
                                   operations, agency assets, or individuals based on the
                                   implementation of an agreed-upon set of security controls.

 Baseline                          A set of configuration items that has been reviewed and agreed
                                   upon and, thereafter, serves as the basis for future management,
                                   development, or maintenance.

 Build Procedures                  Automated and documented procedures used for installing
                                   operating system software on servers and desktops.

 Capability Level                  A capability level consists of related specific and generic
                                   practices for a process area that can improve the organization’s
                                   processes associated with that process area.

 Certification                     Certification is a comprehensive assessment of the management,
                                   operational, and technical security controls in an information
                                   system, made in support of security accreditation, to determine
                                   the extent to which the controls are implemented correctly,
                                   operating as intended, and producing the desired outcome with
                                   respect to meeting the security requirements for the system.

 Configuration                     An element of configuration management consisting of the
 Accounting                        recording and reporting of information needed to manage a
                                   configuration effectively.

 Configuration Audit               A self-assessment conducted to verify that a configuration item
                                   conforms to a specified standard or requirement.

 Configuration Control             An element of configuration management consisting of the
                                   evaluation, coordination, approval or disapproval, and
                                   implementation of changes to configuration items following
                                   configuration identification.

 Configuration                     An element of configuration management consisting of selecting
 Identification                    configuration items for a product, assigning unique identifiers to
                                   them, and recording their functional and physical characteristics
                                   in technical documentation.

 Configuration Item                An aggregation of work products designated for configuration
                                   management and treated as a single entity in the configuration
                                   management process.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                     I-21



             Term                                                   Definition

 General Support System            An interconnected set of information resources under the same
                                   direct management control. This system normally includes
                                   hardware, software, information, data, applications,
                                   communications, and people.

 National Institute of             A non-regulatory federal agency within the U.S. Department of
 Standards and                     Commerce’s Technology Administration. NIST publishes
 Technology                        technical, physical, administrative, and management standards
                                   and guidelines for the cost-effective security and privacy of
                                   sensitive, but unclassified, information in federal computer
                                   systems.

 Plan of Action and                A plan of action and milestones (POA&M), sometimes referred
 Milestones                        to as a corrective action plan, is a tool that identifies tasks to be
                                   accomplished. It details resources required to accomplish the
                                   elements of the plan, milestones in meeting the task, and
                                   scheduled completion dates for the milestones. POA&Ms assist
                                   management in identifying, assessing, prioritizing, and
                                   monitoring the progress of corrective efforts for weaknesses
                                   identified in programs and systems.

 Roll-back Plan                    A documented plan (sometimes called a “back-out plan”) that
                                   describes the system recovery steps to be followed should a
                                   configuration change cause an unexpected, negative effect on an
                                   organization’s IT operations.

 Security Vulnerability            A flaw or weakness in the design or implementation of an
                                   information system (including the security procedures and
                                   security controls associated with the system) that could be
                                   intentionally or unintentionally exploited to adversely affect an
                                   organization’s operations or assets through a loss of
                                   confidentiality, integrity, or availability.

 Software Configuration            The technical and administrative processes of identifying,
 Management                        documenting, and maintaining configuration item integrity;
                                   controlling configuration item changes; recording and reporting
                                   on configuration item change status; and verifying compliance
                                   with policy.

 Work Product                      An artifact produced by a process, such as server and desktop
                                   build procedures, ghost imaging procedures, software image files,
                                   system inventories, and other files, documents, services,
                                   processes, and specifications.
                Part II

Corporation Comments and OIG Evaluation
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General               II-1



CORPORATION COMMENTS AND OIG EVALUATION


The report contains five recommendations directed to the CIO. The CIO’s response to the draft
report is presented in its entirety, beginning on page II-6. DIT concurred with two of the report’s
recommendations, and partially concurred with the remaining three recommendations. Based on
the CIO’s response, the five report recommendations are considered resolved but will remain
undispositioned and open until we have determined that agreed-to corrective actions have been
completed and are effective. The CIO’s responses for each of the report’s recommendations are
summarized below along with our evaluation of the responses.


Recommendation 1: The CIO should establish a policy that takes an enterprise approach
to defining the roles, responsibilities, and overall principles and management expectations
for performing configuration management on operating system software. The policy
should address requirements for developing and maintaining configuration management
plans and performing periodic self-assessments of configuration management processes
and practices.


DIT Response: DIT partially concurs with the recommendation. DIT does not believe that a
single policy covering all types of software is necessarily the best approach. However, DIT
agrees to review its policies to determine how to effectively cover configuration management of
the various operating systems and will develop appropriate modifications to existing policies or a
new policy, as required, to meet the intent of the recommendation. The new and/or revised
policy will be established from a high-level, enterprise approach that will address requirements
for configuration management plans and periodic self-assessments.


OIG Evaluation of Response: DIT’s response meets the intent of our recommendation. The
recommendation is resolved but will remain undispositioned and open until we have determined
that agreed-to corrective action has been completed and is effective.


Recommendation 2: The CIO should develop configuration management plan(s) covering
the four operating system software platforms addressed in this report consistent with
federal standards and guidelines and industry-accepted practices. DIT should determine
whether other operating system software platforms require configuration management
plan(s) and develop such plans where appropriate.
DIT Response: DIT concurs with the recommendation. DIT will incorporate current server
configuration procedures and practices into configuration management plans consistent with
federal standards and guidelines for the four operating systems covered by the audit. DIT will
also determine whether other operating system software platforms require configuration
management plan(s) and develop such plans as appropriate.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General              II-2




OIG Evaluation of Response: The recommendation is resolved but will remain
undispositioned and open until we have determined that agreed-to corrective action has been
completed and is effective.


Recommendation 3: The CIO should ensure that the certification and accreditation of the
FDIC’s general support systems incorporate an evaluation and testing of the FDIC’s
configuration management policy and plans referenced in recommendations 1 and 2 of this
report.
DIT Response: DIT partially concurs with the recommendation. DIT stated that the FDIC’s
security test and evaluation (ST&E) process, a component of the certification and accreditation
(C&A) program, evaluates configuration management policies, procedures, and plans for
compliance with NIST guidance and industry best practices. Once the new configuration
management policy and plans are developed, DIT agrees to include evaluation and testing of the
policy and plans in future C&A cycles.


OIG Evaluation of Response: DIT’s response meets the intent of the recommendation. The
recommendation is resolved but will remain undispositioned and open until we have determined
that agreed-to corrective action has been completed and is effective.


Recommendation 4: The CIO should document the minimum required configuration
settings for the Windows® server and desktop operating system platforms and develop
procedures to ensure that changes to baseline configuration settings are documented.
DIT Response: DIT partially concurs with the recommendation. DIT indicated that it has
several processes to document required configuration settings for Windows® servers and desktop
operating systems, including server build procedures. However, DIT agrees to review its current
procedures to ensure that standard baseline configurations and approved exceptions to
configuration settings are fully documented. DIT will also re-emphasize compliance with
operational procedures established to ensure that server and desktop build procedures are
consistently applied for each operating system. Additionally, DIT will evaluate the feasibility of
adopting automated tool(s) that can facilitate periodic review of configuration settings to monitor
compliance with build standards.
OIG Evaluation of Response: DIT’s response meets the intent of the recommendation. The
recommendation is resolved but will remain undispositioned and open until we have determined
that agreed-to corrective action has been completed and is effective.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General            II-3



Recommendation 5: The CIO should standardize and integrate the recording, tracking,
and reporting of operating system software configuration changes to the maximum extent
practical. As part of this effort, DIT should consider using automated mechanisms to
improve performance metric reporting for configuration changes from a system-specific
and enterprise perspective.
DIT Response: DIT concurs with the recommendation. DIT stated that it has been working to
standardize a single system for tracking and documenting configuration changes and improving
performance metric reporting.
OIG Evaluation of Response: The recommendation is resolved but will remain
undispositioned and open until we have determined that agreed-to corrective action has been
completed and is effective.
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                                 II-4



                      MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the date of
report issuance.

                                                                                                                                 Open
  Rec.                                                                   Expected      Monetary   Resolved:a   Dispositioned:b     or
                                                                                                  Yes or No      Yes or No
Number      Corrective Action: Taken or Planned/Status              Completion Date    Benefits                                  Closedc
    1       DIT will modify existing policies or develop a
            new policy that addresses configuration
            management principles from a high-level,
            enterprise approach and that addresses
            requirements for configuration management              November 30, 2005     N/A         Yes             No           Open
            plans and periodic self-assessments.
    2       DIT will incorporate operating system software
            configuration management procedures and
            practices into configuration management plans             March 15, 2006     N/A         Yes             No           Open
            consistent with federal standards and guidelines.
    3       DIT will include new configuration
            management policies and plans in future
            certification and accreditation cycles.                    June 30, 2006     N/A         Yes             No           Open

    4       DIT will (1) review its current procedures to
            ensure that standard baseline configurations and
            approved exceptions to configuration settings
            are fully documented, (2) re-emphasize
            compliance with operational procedures for
            ensuring server and desktop build procedures
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General                                                                           II-5



               are consistently applied for each operating
               system, and (3) evaluate the feasibility of
               adopting automated tool(s) that can facilitate
               periodic review of configuration settings to                April 15, 2006             N/A            Yes                 No                  Open
               monitor compliance with build standards.




                                                                                                                                                             Open
     Rec.                                                                     Expected            Monetary       Resolved:a      Dispositioned:b               or
                                                                                                                 Yes or No         Yes or No
Number          Corrective Action: Taken or Planned/Status               Completion Date           Benefits                                                 Closedc
       5       DIT will standardize a single system for
               tracking and documenting configuration
               changes and improving performance metric                   August 31, 2006             N/A            Yes                 No                  Open
               reporting.

a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
             (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                  management provides an amount.

b
    Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
    implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
    recommendation.

c
    Once the OIG dispositions the recommendation, it can then be closed.
DIVISION OF INFORMATION TECHNOLOGY COMMENTS
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General   I-7
FDIC’s IT Configuration Management Controls Over Operating System Software
Prepared for the Federal Deposit Insurance Corporation Office of Inspector General   I-8
